<html>
<title> - NOMINATIONS HEARING OF CHAD F. WOLF, JEFFREY C. BYARD, TROY D. EDGAR, JOHN M. BARGER, AND B. CHAD BUNGARD</title>
<body><pre>[Senate Hearing 116-63]
[From the U.S. Government Publishing Office]


                                                           S. Hrg. 116-63

                      NOMINATIONS OF CHAD F. WOLF,
                    JEFFREY C. BYARD, TROY D. EDGAR,
                  JOHN M. BARGER, AND B. CHAD BUNGARD

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

         NOMINATIONS OF CHAD F. WOLF TO BE UNDER SECRETARY FOR
        STRATEGY, POLICY, AND PLANS, U.S. DEPARTMENT OF HOMELAND
        SECURITY, JEFFREY C. BYARD TO BE ADMINISTRATOR, FEDERAL
        EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND
         SECURITY, TROY D. EDGAR TO BE CHIEF FINANCIAL OFFICER,
       U.S. DEPARTMENT OF HOMELAND SECURITY, JOHN M. BARGER TO BE
 A GOVERNOR, U.S. POSTAL SERVICE, AND B. CHAD BUNGARD TO BE A MEMBER, 
                     MERIT SYSTEMS PROTECTION BOARD
                               __________

                             JUNE 12, 2019

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
                             ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
37-004 PDF               WASHINGTON : 2019



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
                Michelle D. Woods, Senior Policy Advisor
               Andrew J. Timm, Professional Staff Member
               David M. Weinberg, Minority Staff Director
               Zachary I. Schram, Minority Chief Counsel
         Alexa E. Noruk, Minority Director of Homeland Security
                 Claudine J. Brenner, Minority Counsel
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Peters...............................................     3
    Senator Rosen................................................    15
    Senator Hassan...............................................    18
    Senator Scott................................................    20
    Senator Carper...............................................    23
    Senator Hawley...............................................    26
    Senator Portman..............................................    29
Prepared statements:
    Senator Johnson..............................................    37
    Senator Peters...............................................    40

                               WITNESSES
                        Wednesday, June 12, 2019

Hon. Richard C. Shelby, A United States Senator from the State of 
  Alabama........................................................
    Testimony....................................................     1
    Prepared statement...........................................    42
Chad F. Wolf to be Under Seretary for Strategy, Policy, and 
  Plans, U.S. Department of Homeland Security
    Testimony....................................................     3
    Prepared statement...........................................    43
    Biographical and financial information.......................    45
    Letter from the Office of Government Ethics..................    60
    Responses to pre-hearing questions...........................    63
    Responses to post-hearing questions..........................    90
Jeffrey C. Byard to be Administrator, Federal Emergency 
  Management Agency, U.S. Department of Homeland Security
    Testimony....................................................     5
    Prepared statement...........................................   116
    Biographical and financial information.......................   119
    Letter from the Office of Government Ethics..................   135
    Responses to pre-hearing questions...........................   138
    Responses to post-hearing questions..........................   169
    Letters of support...........................................   183
Troy D. Edgar to be Chief Financial Officer, U.S. Department of 
  Homeland Security
    Testimony....................................................     7
    Prepared statement...........................................   194
    Biographical and financial information.......................   196
    Letter from the Office of Government Ethics..................   215
    Responses to pre-hearing questions...........................   221
    Responses to post-hearing questions..........................   238
John M. Barger to be a Governor, U.S. Postal Service
    Testimony....................................................     8
    Prepared statement...........................................   247
    Biographical and financial information.......................   250
    Letter from the Office of Government Ethics..................   266
    Responses to pre-hearing questions...........................   271
    Responses to post-hearing questions..........................   296
B. Chad Bungard to be a Member, Merit Systems Protection Board
    Testimony....................................................    10
    Prepared statement...........................................   308
    Biographical and financial information.......................   311
    Letter from the Office of Government Ethics..................   330
    Responses to pre-hearing questions...........................   333
    Responses to post-hearing questions..........................   371
    Letter of support............................................   381


 
                        NOMINATIONS HEARING OF
                   CHAD F. WOLF, JEFFREY C. BYARD,
                 TROY D. EDGAR, JOHN M. BARGER, AND
                          B. CHAD BUNGARD

                              ----------                              


                        WEDNESDAY, JUNE 12, 2019

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:28 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Lankford, Romney, 
Scott, Hawley, Peters, Carper, Hassan, Harris, Sinema, and 
Rosen.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good afternoon. This nomination hearing 
will come to order.
    We are very honored to have the powerful Chairman of the 
Senate Appropriations Committee present here to introduce one 
of our nominees--Senator Shelby. I think what we want to do is 
be respectful of your time because I want you getting back and 
working on that emergency supplemental spending request for the 
Department of Homeland Security (DHS) and the Department of 
Health and Human Services (HHS) having to do with the crisis on 
the border. So I think without further ado I will just ask 
Senator Shelby to make his introduction.

   TESTIMONY OF HONORABLE RICHARD C. SHELBY, A UNITED STATES 
               SENATOR FROM THE STATE OF ALABAMA

    Senator Shelby. Thank you. Thank you, Mr. Chairman, Ranking 
Member Senator Peters, and other Members.
    Thank you very much for holding this hearing today, and I 
appreciate the opportunity to appear before this Committee, the 
Senate Homeland Security and Governmental Affairs Committee 
(HSGAC), to introduce a fellow Alabamian, Mr. Jeffrey Byard, 
from Prattville, Alabama. He has been nominated by President 
Trump to serve as Administrator of the Federal Emergency 
Management Agency (FEMA), which is part of the Department of 
Homeland Security.
    A lot of you have looked at his resume. He currently serves 
as the Associate Administrator for the Office of Response and 
Recovery (ORR) at FEMA, having stepped into the role during the 
height of the Agency's response to Hurricane Harvey and 
Hurricane Irma.
    Jeff Byard is a loyal Alabamian and loyal American. Prior 
to joining FEMA in 2017, he worked for the Alabama Emergency 
Management Agency in various roles and led multiple high-
profile operations, including recovery efforts following the 
Deepwater Horizon oil spill in the Gulf of Mexico. He also 
assisted in various tornado disaster efforts in the Southeast 
where we have, like the Midwest, our share.
    Mr. Byard began his emergency management career in 2002 as 
the Mitigation Division Planner for Alabama's Emergency 
Management Agency where he oversaw the creation and the 
implementation of the Alabama field response structure which 
resulted in several improvements to the response and recovery 
model for the State of Alabama.
    Before entering the field of emergency management, Mr. 
Byard earned his bachelor's degree from Troy University, which 
is located in southeast Alabama. He is also a graduate of the 
Alabama Public Safety Leadership Academy, and prior to earning 
his degree, Mr. Byard honorably served our Nation in the U.S. 
Marine Corps (USMC) from 1990 to 1994.
    He has vast knowledge, experience, and dedication to 
protecting Americans, and responding to hazards that our Nation 
may face will enable him to serve at the highest caliber in 
this new capacity. This is a very important job, and he brings 
a lot of experience to it, and I support his nomination without 
any reservation and hope that the Committee will look favorably 
on him after your hearing and investigation, and we will 
confirm him in the U.S. Senate.
    Mr. Chairman, I appreciate your courtesy and that of 
Senator Peters and other Members of the Committee.
    Chairman Johnson. Well, thank you, Senator Shelby. That is 
an excellent introduction. We certainly appreciate you taking 
the time to do that.
    Senator Shelby. Mr. Chairman, I would like my full 
statement to be made part of the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Shelby appears in the 
Appendix on page 42.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection, absolutely. Thank you 
for coming.
    Now I would like to welcome all of our nominees. Those that 
have served this country in the past, I want to thank you for 
your past service, and I want to thank all of you for your 
willingness to serve in the positions you have been nominated 
for.
    I also want to thank your family members and your friends. 
These jobs are serious responsibilities. They take an awful lot 
of time. They will take a lot of time away from your family and 
friends, so it is really kind of a shared act of service and 
sacrifice. So I do want to acknowledge that.
    I want to apologize for the tardiness of the hearing. We 
had votes to take. But because of the tardiness, I will just 
ask that my opening statement be entered into the record.\2\ 
Without objection.
---------------------------------------------------------------------------
    \2\ The prepared statement of Senator Johnson appears in the 
Appendix on page 37.
---------------------------------------------------------------------------
    Now I will turn it directly over to Senator Peters, if you 
have opening comments.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Well, just to concur with the Chairman. 
Thank you, all of you, for your willingness to serve in this 
capacity, and in the interest of time I would ask that my 
comments, without objection, be entered into the record\1\ as 
well.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Peters appears in the 
Appendix on page 40.
---------------------------------------------------------------------------
    Chairman Johnson. So ordered.
    It is the tradition of this Committee to swear in 
witnesses, so if you will all stand and raise your right hand. 
Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Wolf. I do.
    Mr. Byard. I do.
    Mr. Edgar. I do.
    Mr. Barger. I do.
    Mr. Bungard. I do.
    Chairman Johnson. Please be seated. I will encourage all 
the nominees to introduce your family and friends that are 
attending the hearing here as part of your opening statements. 
But we will begin with the President's nominee for Under 
Secretary for Strategy, Policy, and Plans. This is an important 
position. It is responsible for Department-wide policy 
development and strategic planning, coordinating the policies 
and programs utilizing risk-based analysis to improve 
operational mission effectiveness, and managing the 
Department's leadership councils, and international engagement. 
The nominee is Mr. Chad Wolf, who is currently serving as 
Acting Assistant Secretary for Strategy, Plans, Analysis, and 
Risk at DHS and previously served in several leadership roles 
at DHS. Mr. Wolf.

TESTIMONY OF CHAD F. WOLF,\2\ NOMINEE TO BE UNDER SECRETARY FOR 
   STRATEGY, POLICY, AND PLANS, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Wolf. Good afternoon, Chairman Johnson, Ranking Members 
Peters, and other distinguished Members of the Committee. It is 
an honor to appear before you today as the President's nominee 
to be the first Under Secretary for Strategy, Policy, and Plans 
at the U.S. Department of Homeland Security. I am grateful to 
the President, former Secretary Nielsen, and Acting Secretary 
McAleenan for the trust and confidence that they have placed in 
me.
---------------------------------------------------------------------------
    \2\ The prepared statement of Mr. Wolf appears in the Appendix on 
page 43.
---------------------------------------------------------------------------
    Over the past 2\1/2\ years, my family has made tremendous 
sacrifices so that I can serve at the Department. I would like 
to take this time to recognize them for their ongoing support, 
patience, and love as I continue my journey at the Department.
    Please allow me to introduce my wife of 15 years, Hope, who 
is my rock, and without her support I would not be here today.
    Senator Carper. Would Hope raise her hand? Thank you, 
ma'am. Seven women raised their hands. I just noticed that. 
[Laughter.]
    Mr. Wolf. I would also like to introduce my two sons, 
Tucker and Preston, who have expressed equal excitement for 
coming to Capitol Hill and getting out of school early today as 
well.
    Finally, my parents, Jim and Cinda, who were unable to 
travel to D.C. today, but I know both are proudly watching 
today's proceedings in real time. They have instilled in me a 
sense of service and commitment and have been tremendously 
supportive of my desire to pursue public service.
    I would also like to thank the Members of this Committee 
and their staffs for the important work that you do each and 
every day. While I had the privilege to meet a number of you 
during this process, if confirmed, I look forward to the 
opportunity of working closely together to advance the mission 
of the Department.
    For me, the call to service began on September 11, 2001 (9/
11) when I was evacuated from the Russell Senate Office 
Building along with hundreds of my other colleagues. At that 
time, I had no idea the events of that morning would forever 
shape my future. I was extremely fortunate to join the 
Transportation Security Administration (TSA) during its 
inception and its integration into the Department of Homeland 
Security. During my last year of service at TSA, it was my 
privilege to lead the agency's policy shop, working with a 
dedicated staff and determined stakeholders to develop national 
policies, standards, and regulations governing aircraft, 
airport, and cargo security. Together, I believe we made 
America's skies safer.
    During my time in the private sector, I assisted a number 
of companies helping them to understand both the homeland 
security and national security sectors. Working on public 
policy issues from outside the government gave me a greater 
appreciation for the role of the private sector and the robust 
partnerships necessary to secure the homeland.
    In 2017, I was fortunate to again receive the opportunity 
to serve with the great men and women of DHS. Over the last 
2\1/2\ years, I have held a number of positions at the 
Department, including TSA's Chief of Staff, Deputy Chief of 
Staff of the Department, and Chief of Staff of the Department. 
Through these positions, I have had a front-row seat in 
understanding how the Department operates, the challenges it 
faces, and the need for a strong, dynamic, and repeatable 
policy process that informs leadership decision-making. I have 
had the opportunity to develop strong working relationships 
with senior leadership throughout the Department, as well as 
our many stakeholders within and outside of government. If 
confirmed, I look forward to tackling the myriad of issues 
facing the Department and the country with these partnerships 
in mind.
    Most recently, I serve as the Assistant Secretary of 
Strategy, Plans, Analysis, and Risk as well as the Senior 
Official Performing the Duties of the Under Secretary. These 
positions have enabled me to both focus on challenges facing 
the Department today as well as the longer-term vision for the 
Department and the issues on our strategic horizon. Today I 
would say our Nation faces persistent threats and a dynamic 
threat environment that requires a whole-of-DHS approach. The 
talented and dedicated staff within the Policy Office of the 
Department have an essential role in this mission, and I look 
forward to our continued work to safeguard the Nation.
    If confirmed, I commit to addressing the Department's 
challenges with diligence, transparency, and hard work, as I 
have done throughout my career.
    Serving alongside the 240,000 dedicated men and women that 
make up DHS has been the honor of my lifetime, and if 
confirmed, I look forward to continuing our progress to secure 
the homeland.
    Thank you again for your consideration. I look forward to 
answering your questions.
    Chairman Johnson. Thank you, Mr. Wolf.
    Our next nominee has been nominated to be the Administrator 
for the Federal Emergency Management Agency. The FEMA 
Administrator is the principal advisor to the President, the 
Secretary of Homeland Security, and the Homeland Security 
Council for Emergency Management on the Federal Government's 
preparation for, mitigation of, response to, and recovery from 
all-hazard incidents.
    The President's nominee is Jeff Byard. He currently serves 
as the Associate Administrator for FEMA's Office of Response 
and Recovery and has over 17 years of experience at the State 
and Federal level in emergency management. Mr. Byard.

TESTIMONY OF JEFFREY C. BYARD,\1\ NOMINEE TO BE ADMINISTRATOR, 
    FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Byard. Good afternoon, Chairman Johnson, Ranking Member 
Peters, and Members of the Committee. My name is Jeff Byard. I 
would like to take a quick moment to thank Senator Shelby for 
taking time out of his day to introduce me and his support.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Byard appears in the Appendix on 
page 116.
---------------------------------------------------------------------------
    I would also like to thank my wife, Sara, and my daughters 
Brooke, Kate, Caroline, and Zoe, who are sprinkled throughout 
the audience behind us, for their support over my years and 
career as an emergency manager. Being an emergency manager 
often requires long hours away from home, long nights away from 
home, and I could not have been as successful as I am now 
without their continued support.
    I also have many friends and family. My mother back home, 
who I know is watching, I want to thank her for all that she 
has done throughout my life and throughout my career.
    I am honored to appear before you today as the nominee to 
be the Administrator of FEMA. I am extremely thankful to the 
President and the Acting Secretary for their faith that they 
have in me and have placed in me in this position. I have a 
strong commitment to duty, public service, and integrity. This 
started young in my life, but was definitely hammered home in 
my time as a United States Marine. These qualities, coupled 
with years of experience in emergency management, have prepared 
me for the position which I am now nominated for, and if 
confirmed, I look forward to tackling the many challenges that 
lay ahead.
    I began my emergency management career as an entry-level 
planner with the Alabama Emergency Management Agency. I was 
promoted through the ranks. I spent a total of 14 years at the 
agency. In those last 10 years, I was senior career emergency 
manager for the agency. I had the opportunity to lead a great 
group of professionals through many disasters in the State and 
obviously helping our local governments recover from disasters, 
not all the time raised to the level of FEMA assistance, but 
disasters all the same.
    One of the most devastating disasters that I witnessed in 
Alabama was the super tornado outbreak of 2011, which caused 
238 fatalities as a result of 64 tornadoes in one day. During 
my time with the State of Alabama, I held senior leadership 
positions for 14 presidentially-declared major disasters and, 
as I said, many states of emergency that did not rise to the 
level of Federal involvement.
    Since 2017, I have served as the Associate Administrator 
for FEMA's Office of Response and Recovery. In this position, I 
have been the senior agency official responsible for all 
matters of disaster operations. While serving in this capacity, 
I have managed operations in over 100 presidentially-declared 
disasters and emergencies, including the historic hurricane 
seasons of 2017 and 2018, as well as the unprecedented Western 
wildfires.
    The most rewarding part of my experience as the Associate 
Administrator has been working alongside the men and women of 
FEMA. FEMA's workforce has time and time again exhibited their 
tireless and selfless dedication to the service of others, and 
I firmly believe that there is no better workforce in the 
Federal Government today. They truly do not receive the credit 
which they deserve.
    If confirmed, I will continue to focus on addressing 
resource requirements to rapidly stabilize community lifelines 
in the wake of any disaster. A key aspect of this requirement 
is the inclusion of the private sector during emergency 
response, and I will seek to expand on our existing efforts in 
this space.
    I am also committed, if confirmed, to continuing to reduce 
the complexity of FEMA's programs, paying close attention to 
our recovery programs.
    A top priority of mine will be the overall well-being of 
our workforce. FEMA currently has staff deployed to some of the 
Nation's most devastating and complex disasters that stretch 
the globe, from Saipan to the U.S. Virgin Islands (USVI). We 
have several thousand staff in Puerto Rico, and they will be 
assisting the Commonwealth for years to come. Many of these 
dedicated personnel have been deployed for extended periods of 
time, in some cases longer than military deployments. The 
nature of this work is filled with pressure. The nature of this 
work and deployments can create at time low morale and affect 
the quality of life. And if confirmed, I want to take a deep 
look at how we ease the burdens of our workforce.
    It is important to note that 85 percent of the workforce 
believes their mission impacts the others, and that is a good 
component to have.
    I look forward to working with the Committee and working 
with all aspects to better what we do at FEMA, if confirmed, 
and I welcome any questions the Committee may have. Thank you.
    Chairman Johnson. Thank you, Mr. Byard.
    Our next nominee, Troy Edgar has been nominated to be the 
Chief Financial Officer (CFO) of the Department of Homeland 
Security. The CFO provides oversight of the financial 
management systems, budgeting and accounting, program analysis 
and evaluation, and internal controls, cash, credit, and debt 
management policies of the Department. Mr. Troy Edgar has spent 
over 30 years in the private sector, currently serving as the 
president and Chief Executive Officer (CEO) of Global 
Conductor, Incorporated, a management consulting firm, and 
previously served in the U.S. Navy. Mr. Edgar.

 TESTIMONY OF TROY D. EDGAR,\1\ NOMINEE TO BE CHIEF FINANCIAL 
         OFFICER, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Edgar. Thank you. Chairman Johnson, Ranking Member 
Peters, distinguished Members of the Committee, it is an honor 
for me to appear before you today as the President's nominee to 
be Chief Financial Officer of the Department of Homeland 
Security. I am grateful to the President, former Secretary 
Nielsen, and Acting Secretary McAleenan for the trust and 
confidence that they have placed in me, and I thank the 
Committee for considering my nomination. This process has 
enabled me to better appreciate the high honor bestowed upon me 
to serve and to better understand the critical expectations 
that this Committee may have for me, if confirmed.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Edgar appears in the Appendix on 
page 194.
---------------------------------------------------------------------------
    Thanks to my Lord for the grace in my life and for the 
opportunity to serve my country. My family is very important to 
me. Although they are not here, I would like to recognize them. 
Mat, Tyler, and Ethan are my sons. Tracy is my brother. And I 
honor the memory of my late Mom and Dad, Ralph and Maxine.
    I would like to introduce my wife, who is here, Betty. She 
is right behind me in white. Betty embodies the American dream 
in a manner that enables me to understand the hopes and 
aspirations of millions of people who come to America. Her 
story helps me understand the true weight of public service. I 
not only come to this nomination with technical skills and 
business experience, but I come with a conscience informed 
through the personal experiences of my wife. Betty is an 
immigrant from Iran who spoke only Farsi and Aramaic growing up 
in Tehran. Her family fled to the United States after the Shah 
was overthrown in 1979. She is now a French teacher in Little 
Saigon in our area in Orange County for over 20 years. Betty 
rises every morning believing that she herself has the ability 
to change another student's life the way this country has 
changed hers. Thank you, Betty, for being here and supporting 
me today.
    My background has prepared me for this opportunity. After 
my tour of duty in the Navy, I have spent over 30 years working 
for over 40 Fortune 500 and Global 1000 companies as an 
executive, as a CFO, and as an adviser across many industries, 
including aerospace defense, government, and technology. 
Providing executive leadership support to establish and achieve 
operational goals as well as leading finance transformation 
improvements are areas in which I have significant experience. 
These include modernizing financial systems, enhancing cost 
management and budget processes, establishing program 
management offices, and improving audit and financial controls 
to meet statutory and regulatory compliance.
    I also have implemented large-scale global enterprise 
resource planning and financial management systems, corporate 
headquarters restructuring and consolidations, shared services 
and significant finance transformations for Fortune 500 
companies. I believe this experience is relevant to current 
needs of the Department's CFO position. If confirmed, I will 
use these skills meaningfully to address the challenges the 
Department may face.
    Working in corporate America has not been my only main 
focus. Serving in nonpartisan elected, appointed, and nonprofit 
board positions where I provide finance and operational 
leadership to many public organizations is of great importance 
to me.
    I believe in public service and in answering the call of 
our great country. If confirmed, I look forward to being a 
trusted adviser to the Secretary, the Deputy Secretary, the 
Under Secretary of Management, and the Department's senior 
leaders, providing leadership through my experiences and 
expertise to support the mission, maximize efficiency and 
effectiveness of available resources, and protect taxpayer 
dollars.
    If confirmed, I will quickly engage with the Office of the 
Chief Financial Officer and the Component CFOs to gain a 
comprehensive view of the current situation, status, and 
resourcing. I am committed to create a positive workplace 
culture and improve teamwork, raise morale, and enhance 
retention of our valuable workforce.
    Last, if confirmed, I look forward to working with this 
Committee and other Members of Congress to assist you in the 
important role of oversight and support for the Department. I 
am committed to investing the time to build critical working 
relationships needed to significantly advance DHS.
    Thanks again for the opportunity to appear before you, and 
I look forward to answering your questions. Thank you.
    Chairman Johnson. Thank you, Mr. Edgar.
    Our next nominee, John Barger has been nominated to be a 
Governor of the United States Postal Service (USPS) Board of 
Governors. The USPS Board of Governors oversees the financial 
decisions of the Postal Service and is managed similar to the 
board of directors of a private company, but also represents 
the public interest in ensuring the Postal Service meets 
obligations to its customers and the American people. Mr. 
Barger has over 30 years of leadership in finance, 
entrepreneurship, and public governance, currently serving as 
the managing director of Northern Cross Partners, LLC. Mr. 
Barger.

TESTIMONY OF JOHN M. BARGER,\1\ NOMINEE TO BE A GOVERNOR, U.S. 
                         POSTAL SERVICE

    Mr. Barger. Thank you, Mr. Chairman. And before I begin, I 
want to acknowledge my son, Christopher, is in the audience, 
who just moved here to Washington and is looking for a job. So 
good to have you here, Chris. [Laughter.]
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Barger appears in the Appendix on 
page 247.
---------------------------------------------------------------------------
    Mr. Barger. Unfortunately, my wife could not be here. We 
are foster parents, and so she has some work to do at home. And 
our daughter, Sophia, is up in Canada. She is a dancer, and so 
she cannot be here. But they are very supportive of what we are 
doing here, so I thank them also.
    Chairman Johnson, Ranking Member Peters, and Members of the 
Committee, it is an honor to be here today. Thank you for 
considering my nomination to the Board of Governors of the 
United States Postal Service, and thank you to President Trump 
for nominating me. I am humbled and, if confirmed, I will do my 
level best to guide this vital American institution as it faces 
challenges in today's technology-driven world.
    Our Founders understood and created institutions that would 
enable Americans to unite and thrive while inhabiting a vast 
territory. One vital institution remains the United States 
Postal Service. Historically, it has enabled us to develop a 
common identity as citizens of one Nation.
    The Postal Service's goal for the 21st Century must be to 
ensure that all Americans--whether urban or rural, rich or 
poor--have universal access to mail service that is modern, 
affordable, and relevant. Today, however, the post faces 
profound challenges. Technology has changed how people 
communicate and conduct commerce. Email and online bill payment 
have eroded one key revenue source: First-Class mail delivery. 
These and other changes will continue to have a direct impact 
on the Postal Service's economic model. Artificial intelligence 
(AI), robotics, advance supply chain management, 3D printing, 
and drone technology are but a few of the developments likely 
to impact the Postal Service. How the Postal Service adapts to 
these innovations will determine its future success. 
Furthermore, success is of vital importance given the universal 
service obligation (USO) and its role in our national identity.
    The Postal Service has assets to help meet this challenge, 
including its unique and extraordinary delivery network 
connecting practically every American. Building on that, the 
Postal Service must better understand customer demands, 
competitive forces, and technological developments that will 
allow it to reform its business model, ensure universal 
service, and meet retiree and employee obligations without 
assurance from the taxpayer.
    My educational background has prepared me to serve as a 
Postal Service Governor. A history and philosophy graduate of 
Ohio Wesleyan University, I received my J.D. from the 
University of California Hastings College of Law and my M.S.C. 
in accounting and finance from the London School of Economics.
    After briefly clerking for a Federal judge and practicing 
law, I worked with Citibank and Bankers Trust in New York and 
London financing large, complex companies and transactions. 
More recently, I have been a director of private companies 
facing changing markets and complex supply chain issues.
    One is an e-commerce and supply chain company that has 
changed the way its customers--in this case, wineries--sell and 
deliver to their consumers. Using cutting-edge logistics 
technology, it will fulfill 7 million transactions and ship 
approximately $1.7 billion in product this year.
    I also serve on the board of a light emitting diode (LED) 
visual display technology company with complex supply chain 
problems and customers in the United States, Asia, and Europe. 
I have also partnered with SAP in the past, an international 
market leader in supply chain technology and enterprise 
software.
    My public service includes 7 years as a director on the 
Investment and Retirement Boards of the Los Angeles County 
Employees Retirement Association (LACERA). LACERA is the 
largest county pension fund in the United States, managing over 
$60 billion in assets and overseeing the benefits for 
approximately 160,000 current and retired Los Angeles County 
employees. Three times my peers elected me Investmeny Board 
Chair of that body, indicating an ability to earn the trust and 
successfully build consensus among labor, government, and the 
private sector.
    Finally, I am a successful entrepreneur, being a founder, 
former director, and managing director of AXA/XL Group-Latin 
America, before selling my interest in that firm. More 
recently, I co-founded turn-around management/consulting firm, 
Sierra Constellation Partners, which I exited in 2016.
    In conclusion, I try to be a consensus builder and 
collaborative problem solver with a sense of urgency. As an 
experienced executive and board member, I have also learned 
that good governance is essential and works best when all board 
members are encouraged to lend their varied experiences and 
best ideas. If confirmed, I will endeavor to bring this 
approach to the United States Postal Service Board.
    I thank this Committee for allowing me to be before you, 
and I am prepared to answer any questions you have.
    Chairman Johnson. Thank you, Mr. Barger.
    Our final nominee, Chad Bungard, has been nominated to be a 
member of the Merit Systems Protection Board (MSPB). The MSPB 
is an independent agency that adjudicates Federal employee 
appeals, conducts research, and issues reports on various 
issues related to the Federal workforce. Mr. Bungard served as 
the Chief Legal Officer of three Federal entities and has 
dedicated more than 20 years of his career to cultivating an 
efficient Federal workforce. He currently serves as the Deputy 
Commissioner for Analytics Review and Oversight at the Social 
Security Administration (SSA). Mr. Bungard.

TESTIMONY OF B. CHAD BUNGARD,\1\ NOMINEE TO BE A MEMBER, MERIT 
                    SYSTEMS PROTECTION BOARD

    Mr. Bungard. Thank you. Chairman Johnson, Ranking Member 
Peters, and Members of the Committee, I would like to thank you 
very much for inviting me here today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bungard appears in the Appendix 
on page 308.
---------------------------------------------------------------------------
    I would also like to thank my wife, Emma, who is here with 
us; our children, Max, Harry, Molly, and Beckett. I dragged 
them all with me today. And my father and mother are also here, 
Max and Kathy Bungard; and my father-in-law and mother-in-law, 
Marilyn and Tony Fitzgerald. I would also like to thank the 
rest of my family who are scattered throughout.
    I would also like to thank MSPB Legislative Counsel Rosalyn 
Coates and MSPB General Counsel Tristan Leavitt for their 
assistance in preparing me for this hearing.
    Throughout my Federal career, I have been devoted to 
fighting corruption, increasing the efficiency and 
effectiveness of agencies and their programs, promoting the 
efficiency of the service, and fighting and preventing fraud, 
waste, and abuse.
    I believe that my experience has equipped me with a unique 
perspective from which to carry out the responsibilities of a 
member of the Board and insight into the absolute importance of 
protecting the merit system principles and promoting an 
efficient and effective workforce, free of prohibited personnel 
practices.
    Following my time in private practice, my Federal career 
began on the Hill in 2001, where I primarily focused on 
oversight, government reform, and Federal civil service policy.
    I moved to the Executive Branch in 2006, as the General 
Counsel for the Merit Systems Protection Board. In that role, I 
acquired a thorough knowledge of MSPB's practices and 
procedures. In addition to serving as the chief legal officer 
there, I oversaw the MSPB's heavy litigation docket before the 
U.S. Court of Appeals for the Federal Circuit and oversaw the 
preparation of dozens of draft decisions for the Board.
    I later went on to serve as the Counsel to the Inspector 
General (IG) for the Social Security Administration. In that 
role, I was the chief legal officer for SSA's Office of the 
Inspector General (OIG) for almost 5 years, where I served as 
SSA's first Whistleblower Protection Ombudsman (WPO) for over 
65,000 employees at SSA.
    I then served for a few years as the General Counsel for 
the Office of the Special Inspector General for the Troubled 
Asset Relief Program at the Department of Treasury.
    During my 12 years as a chief legal adviser for three 
different Federal entities, I performed complex legal analysis 
and provided advice on a wide range of legal issues, and I 
routinely provided supervision of legal advice and 
representation on agency personnel matters.
    I currently serve as the Deputy Commissioner for the Office 
of Analytics, Review, and Oversight at the Social Security 
Administration. In that role, I am responsible for providing 
executive leadership to more than 2,000 employees, including 
leading the Office of Anti-Fraud Programs, the Office of 
Quality Review, the Office of Analytics and Improvements, and 
the Office of Appellate Operations, where SSA's Administrative 
Appeals Judges (AAJ) adjudicate appeals from SSA's 
Administrative Law Judge (ALJs).
    The Federal Government has a unique role. The business of 
government is to serve the American people. We must have a 
Federal workforce that the American people can count on, and 
key to that is protecting merit system principles and promoting 
a workplace free of prohibited personnel practices.
    The MSPB is central to the application of the merit system 
principles to the Federal workforce. The Federal workforce 
needs to be able to recruit, retain, pay, and promote the best 
and the brightest solely based on their skill and performance 
in carrying out the many Federal services for the American 
people. The Federal workplace must be free of arbitrary action, 
free of favoritism of any sort, and be committed to the highest 
standards of conduct and integrity. It must also be a workplace 
where employees are encouraged to come forward with ideas for 
improving business practices and to report fraud, waste, and 
abuse, without fear of retaliation.
    Effective stewardship of taxpayer funds is a crucial 
responsibility of government, from preventing fraud to 
maximizing impact. That is why the MSPB'S mission is so 
important. If confirmed, I commit to reviewing and adjudicating 
each case with an open mind, good judgment, and impartiality. I 
will fully and fairly analyze the arguments and decide every 
case based on the facts in the record and in accordance with 
the law. I will decide matters independently, without fear or 
favor, and to the best of my ability. It is absolutely 
essential that the Board inspire public confidence in its 
independence, integrity, and impartiality. I will also strive 
to ensure, if confirmed, that the MSPB's studies and review of 
the Office of Personnel Management (OPM) rules contribute to 
the management of the Federal workforce free of prohibited 
personnel practices.
    I would be happy to answer any questions that you may have. 
Thank you.
    Chairman Johnson. Thank you, Mr. Bungard.
    The Committee always asks nominees three questions. I will 
ask them to each of you, and if you can start with Mr. Wolf, 
each responding to the question in order.
    First of all, to all of you, is there anything you are 
aware of in your background that might present a conflict of 
interest with the duties of the office to which you have been 
nominated? Mr. Wolf.
    Mr. Wolf. No.
    Mr. Byard. No.
    Mr. Edgar. No.
    Mr. Barger. No, sir.
    Mr. Bungard. I do have a management support staff that I 
oversee, and there are some personnel matters that could 
potentially come before the Board. We are talking about a 
handful of cases, so they are keeping a list for me. But, 
otherwise, no, I would be recused from those cases if they came 
to the Board.
    Chairman Johnson. OK. The Committee will follow up to find 
out what those might be.
    Mr. Bungard. Alright.
    Chairman Johnson. Second question. Do you know of anything, 
personal or otherwise, that would in any way prevent you from 
fully and honorably discharging the responsibilities of the 
office to which you have been nominated? Mr. Wolf.
    Mr. Wolf. No.
    Mr. Byard. No, sir.
    Mr. Edgar. No.
    Mr. Barger. No, sir.
    Mr. Bungard. No.
    Chairman Johnson. Finally, do you agree without reservation 
to comply with any request or summons to appear and testify 
before any duly constituted Committee of Congress if you are 
confirmed? Mr. Wolf.
    Mr. Wolf. Yes, without reservation.
    Mr. Byard. Yes, without reservation.
    Mr. Edgar. Yes, without reservation.
    Mr. Barger. Yes, without reservation.
    Mr. Bungard. Yes, absolutely.
    Chairman Johnson. OK. Well, thank you. I really do 
appreciate the attendance by so many Committee Members, so out 
of respect for their time, I will defer my questions to the end 
and go to Senator Peters.
    Senator Peters. Thank you, Mr. Chairman. And thank you 
again to each of you for your willingness to serve.
    This Committee is the Senate's primary oversight body, and 
we have a constitutional duty to conduct oversight of 
government-wide operations and ensure that Federal agencies and 
programs are serving the American people both effectively and 
certainly spending taxpayer dollars responsibly.
    However, we cannot fulfill that mission of critical 
oversight if we do not have the cooperation of Federal 
agencies, and I know that you addressed this in your written 
responses, but I am also going to ask you to reiterate those 
answers, and starting with Mr. Wolf. This is for all of you, 
and, of course, you are under oath in the Committee here.
    If confirmed, will you commit to responding to oversight 
requests from Members of Congress, and particularly from 
Members of this Committee, in a consistent and timely manner 
and regardless of party? Mr. Wolf.
    Mr. Wolf. I do.
    Mr. Byard. Yes, sir.
    Mr. Edgar. Yes, sir.
    Mr. Barger. Yes, sir.
    Mr. Bungard. Yes, absolutely.
    Senator Peters. Alright. Thank you.
    Mr. Wolf, as we were discussing this morning, I am 
extremely concerned by how the Federal Government is 
prioritizing its resources to prevent domestic terrorism, 
especially given the disturbing rise in white supremacist 
violence that we have seen across our country. DHS and the 
Federal Bureau of Investigation (FBIs) own joint intelligence 
bulletins have noted that white supremacist extremists were 
responsible for more murders and attacks from 2000 to 2016 than 
any other domestic extremist group, and they continue to pose a 
threat of lethal violence in the years ahead.
    My question to you, sir, is: What trend lines are you 
seeing in regards to domestic terrorism? And if you could give 
me a sense of what you believe based on your experience may be 
motivating these attacks.
    Mr. Wolf. Yes, absolutely. Thank you for the question. The 
trend lines that we see working through my colleagues at the 
Intelligence and Analysis Directorate within the Department and 
their colleagues at the Department of Justice (DOJ) and others 
is the trend that you mentioned, Senator. So, as we look at 
attacks since 2014, what we see is four-fifths of those are 
domestic terrorism-related attacks here in the homeland. About 
one-fifth, or a little under one-fifth are what we call 
homegrown violent extremist (HVE) attacks, that deal more with 
a foreign ideology.
    So as we look at, specifically as I look at the growing 
trend and the growing threats facing the homeland, as I 
indicated this morning, this is one that certainly is on my 
radar. I have talked with the Acting Secretary numerous times 
about it, and we continue to look at ways that we can bolster 
our efforts in the Department, me specifically in the Policy 
Office, but then largely all of the efforts between FEMA, the 
Cybersecurity and Infrastructure Security Agency (CISA), and 
the other Components in the Department.
    Senator Peters. Given your responsibilities, if confirmed, 
to develop policy, what data points are we collecting now--or I 
should say that we are not collecting right now, what data 
points are we not collecting that could provide perhaps more 
critical insight into domestic terrorism and to those extremist 
groups that you referenced?
    Mr. Wolf. So I think overall, from a Policy Office 
standpoint, we are consumers of information both from our 
Intelligence and Analysis Directorate who, again, pulls that 
information either from the Department of Justice, FBI, and 
others.
    When we talk about domestic terrorism and racially 
motivated extremists and the like, I think it is getting to 
their intention, specifically how they are radicalized, the 
method of radicalization. When we talk about Internet, the ease 
of social media and the like. So I think those are the 
challenges the Department, specifically the Policy Office, is 
looking at. How do we identify these individuals early? How do 
we intervene? How do we counter the narratives that are out 
there moving forward?
    We do that a couple of different ways. We work with our 
State and local partners and ensure that they have the 
resources at the local level, the training, development 
standpoint, grants, Federal resources; and from a Federal 
level, making sure that we are sharing the threat information 
with our State and local partners so that they understand what 
that is. Then, of course, with the social media companies and 
making sure that we take down terrorist content in a quick way.
    Senator Peters. So you mentioned additional resources for 
State and local activities. What additional resources does DHS 
need in your estimation to combat domestic terrorism?
    Mr. Wolf. I think the one that I am focused on is our grant 
program. It is a 2-year grant program that the money was 
obligated in 2016, launched in 2017, and we are having an 
assessment of the results at the end of July. There are a 
number of grants within the 25 grantees that are focused on 
State and local partners, focused on law enforcement agencies 
that go out and deliver training, to look at de-radicalization 
and the like. So I am very interested in the assessment coming 
out of that. Early indications are it is having an effect. 
Again, I have talked with the Acting Secretary, and I think we 
are going to be very forward-leaning on that grant program 
going forward.
    Senator Peters. Could you give the Committee a better sense 
of, if confirmed, how you plan to work with the White House and 
Congress to better address this issue?
    Mr. Wolf. Sure. For me, it is all about listening to the 
experts, and I do that from a Policy Office standpoint. I have 
experts in my office that have handled this issue for years, 
handled this issue for years. So understanding what has worked, 
what have we looked at in the past that has not worked, as well 
as looking at new ideas. The Policy Office is the main 
interface with the interagency, so we talk with the White 
House, but we also talk with, again, FBI, DOJ, and others on 
this issue.
    My policy staff currently does that today and will continue 
to do that, and there are robust discussions occurring in the 
interagency moving this issue forward.
    As you know, domestic terrorism is mentioned in the 
National Counterterrorism Strategy from the White House. It is 
also going to be a key component of the Department's 
counterterrorism strategy, which will be released this fall. 
And our preventative framework will be outlined in that as 
well.
    Senator Peters. Chairman Johnson and I sent a letter to DHS 
requesting data related to domestic terrorism activities 
throughout the Department, as you know. We spoke this morning, 
and I asked you--I was told it is ongoing, the collection of 
data is ongoing. And I asked for a more specific timeline, and 
I mentioned to you I will ask you at the hearing today. So do 
we have a specific timeline as to when we will have a full 
answer to the letter that the Chairman and I wrote?
    Mr. Wolf. Yes, Senator. So as you are aware, we have 
provided some initial documents that are responsive to that 
request. It is a complex request that we are pulling. It is my 
understanding that you will receive the next set of documents 
in early July, so that is about 2, 2\1/2\ weeks from now. We 
have communicated that with your staff, and I think you will 
receive the majority of those materials.
    Senator Peters. That will be the complete record by the 
beginning of July or a majority?
    Mr. Wolf. To my understanding, that will be mostly 
complete. Again, not all of that information falls within the 
Policy Office, we certainly provide a lot of it, and we have 
done that. However, there are other elements and other document 
pools throughout the Department that I am closely monitoring, 
but I do not have particular oversight on that.
    Senator Peters. Alright. But we would certainly like your 
continued assistance.
    Mr. Wolf. Yes, and you have it.
    Senator Peters. Thank you.
    Chairman Johnson. Senator Rosen.

               OPENING STATEMENT OF SENATOR ROSEN

    Senator Rosen. Thank you, Mr. Chairman. Thank you, Ranking 
Member. I want to thank all of you for being here today, for 
your families coming, your parents, and your willingness to 
step up and serve. We appreciate that.
    I would like to start with Mr. Byard, if I will. There is 
no shortage of, unfortunately, disasters, natural disasters 
happening around our country, and so I would like to focus on 
that for a minute because this past August the South Sugarloaf 
fire scorched over 230,000 acres in northeastern Nevada. It 
prompted the evacuation of about 300 people, and it threatened 
infrastructure such as our State Route 225, lots of power 
lines, numerous cell and radio towers. The fire destroyed not 
only private lands but public lands. It affected ranchers, 
recreation, and wildfire. In Nevada, we have a lot of frontier 
territory. We are one of the most mountainous States of the 
lower 48, so we have a lot of wide open spaces.
    So despite this devastation and despite me and my Nevada 
colleagues fighting for funding, FEMA denied the State of 
Nevada's request for a fire management assistance grant because 
a fire did not threaten such destruction as would constitute a 
major disaster because it was in a rural area. The current 
criteria that FEMA uses to evaluate applicants for grants makes 
it very difficult for rural communities not just in Nevada but 
across this country to receive funding, despite the fact that 
these communities rely heavily on the land for their income, 
whether it be through ranching, farming, outdoor recreation, or 
energy development.
    According to our State forester, fires in rural Nevada, 
even when they do not destroy structures, can be devastating to 
our landscape. It has a major economic impact that is often 
difficult to quantify.
    So my question to you is this: How will you ensure that 
FEMA is better equipped to assist remote and rural communities 
like mine in dealing with wildfires and other similar 
emergencies?
    Mr. Byard. Yes, Madam Senator, and thank you for the 
question. As you know, the fire management assistance grant is 
there to reimburse the cost of the firefighters as they fight 
the fire and to also provide resources to, as you stated, 
prevent a major disaster declaration.
    As the Stafford Act, the law that guides us, the 
agricultural impacts of that are not a factor that we look at 
under the law. I do not mean to say that is not an important 
factor. It is.
    Senator Rosen. My next question, really: Should we change 
these eligibility standards for fire management assistance 
grants so they take these things into consideration and what 
matters most to the families that are involved here?
    Mr. Byard. Yes, ma'am, what I would focus on any changes is 
I would focus on the economic impacts and maybe look at certain 
aspects of what builds the economic impacts, but the economic 
impacts as a whole. I want to reiterate, I am not saying that 
that is not important from an economic standpoint or the family 
life of a farm. I am from a rural State. I understand the 
complexities and the challenges that a rural State faces when 
disaster does strike in that magnitude. So, looking at placing 
more emphasis, if there was a change, on what are the economic 
impacts of the fire and not necessarily specifically looking at 
certain aspects, because there are other grant programs 
available through farm services and others that I am not an 
expert in by any means. But I do know there are other grant 
programs available. That is another aspect of the Stafford----
    Senator Rosen. Well, perhaps you might consider 
coordinating, because families, when they are in trouble, when 
there has been a natural disaster like a hurricane in 
Louisiana, a wildfire out West, they often do not have the time 
or resources to contact multiple agencies, so they look to FEMA 
for direction and guidance.
    So can you commit to being that funnel of information for 
people in their greatest time of need to put their lives back 
together?
    Mr. Byard. Yes, ma'am, if confirmed through my 
questionnaire and through both my oral statement and written 
statement, one of our priorities is to reduce the complexity of 
FEMA. Part of that complexity is the multiple programs, not 
just within FEMA, that are available for assistance. All the 
programs are intended to do good. I am a believer of that. You 
are a believer of that. But, when you are sitting on the other 
end of that disaster, you need clear, concise avenues of 
approach. So I would definitely commit to working to streamline 
those and to make those understandable and digestible by the 
disaster victims.
    Senator Rosen. I look forward to seeing that.
    Mr. Byard. Yes, ma'am.
    Senator Rosen. My next question is for you, Mr. Wolf. Of 
course, we met the other day, and when you were at DHS in 2018, 
when the Attorney General (AG) announced their zero tolerance 
policy, that led to thousands of children being separated from 
their parents at the U.S. border. During your time as Chief of 
Staff for Secretary Nielsen, what was your involvement in 
developing and implementing the so-called zero tolerance 
policy?
    Mr. Wolf. Senator, my job as Chief of Staff generally--and 
then I will talk specifically about this--was to make sure that 
the Secretary was properly staffed, she had the right experts 
in the room to answer her questions and to address whatever the 
issue might be. It was also to balance both her time and her--
--
    Senator Rosen. Did you help develop that policy?
    Mr. Wolf. No, ma'am. Again, we were given direction both 
through an Executive Order and the Attorney General's zero 
tolerance policy at the time. The discussions that were 
underway at the Department at that time were how to 
operational----
    Senator Rosen. Let me ask it this way: As her Chief of 
Staff, then how did you become aware of this policy?
    Mr. Wolf. Through discussions with staff, discussions 
leading up to the Attorney General's announcement, I believe in 
April 2018. And then I was involved sitting in on various 
discussions with our operators. That would have been Customs 
and Border Protection (CBP), U.S. Citizenship and Immigration 
Services (USCIS), and Immigration and Customs Enforcement 
(ICE), as well as General Counsel on how to operationalize the 
decision made by both the President and the Attorney General.
    Senator Rosen. As Chief of Staff and a senior adviser, did 
you have concerns with that policy? And if so, did you bring 
those concerns to the Secretary at that time?
    Mr. Wolf. My job was not to determine whether it was the 
right or wrong policy. My job at the time was to ensure that 
the Secretary had all the information that she needed. Again, 
she relied on her operators to discuss the options on how to 
operationalize, the Executive Order as well as the AG----
    Senator Rosen. So let me ask you another question then. Do 
you agree with the actions taken by the Department, including 
the treatment of young children?
    Mr. Wolf. I agreed with the President's decision through an 
Executive Order to end that practice, and the goal is to----
    Senator Rosen. To end the practice of separation?
    Mr. Wolf. To end the practice of and keep families together 
during their immigration proceedings.
    Senator Rosen. So you are against a zero tolerance and 
family separation and for keeping families together?
    Mr. Wolf. I agree with and I support the President's 
decision, again, through an Executive Order that ends that 
policy for families and keeps families together through the 
pendency of their immigration proceedings. It is why the 
Department has been reaching out to Members of this Committee 
and to Congress on some of the new authorities that we need to 
address this issue.
    Senator Rosen. Thank you.
    Mr. Wolf. Thank you.
    Chairman Johnson. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chair, and thank you to all 
the nominees and their families for begin willing to serve.
    Mr. Byard, I am going to start with you. As you well know, 
the Federal Emergency Management Agency is struggling with 
serious problems relating to sexual harassment of its female 
employees. Last year, FEMA Administrator Brock Long called 
sexual harassment at the Agency a ``systemic problem going back 
years''--that is his quote--and said that one of his biggest 
challenges would be the ``eradication of this cancer.''
    It will be imperative that the next FEMA Administrator and 
any future FEMA Administrators have the highest integrity on 
this matter, that they lead by example and adopt a zero 
tolerance policy for sexual harassment. Simply put, changing an 
agency's toxic culture requires that the top agency officials 
set the tone for the entire agency.
    To help set that tone and to assure FEMA's workforce of 
your commitment to changing the culture, I want to get your 
answers to a few questions.
    First, have you ever been accused of or disciplined for 
sexually harassing your colleagues in any previous positions?
    Mr. Byard. No, ma'am.
    Senator Hassan. Have you ever been accused of or 
disciplined for any inappropriate behavior with a colleague?
    Mr. Byard. No, ma'am.
    Senator Hassan. Thank you. In your opinion, have you 
adopted a zero tolerance policy for sexual harassment in the 
workplace in all of your previous positions?
    Mr. Byard. Yes, ma'am.
    Senator Hassan. Finally, will you commit to taking swift 
action against any future instances of sexual harassment 
perpetrated by employees of FEMA?
    Mr. Byard. Yes, ma'am.
    Senator Hassan. Thank you.
    To Mr. Wolf, first of all, I appreciated visiting with you, 
as I did with Mr. Byard. Over the years the Department of 
Homeland Security has struggled to identify its appropriate 
role of preventing homegrown terrorism. I want to follow up a 
little bit on some of the issues that Senator Peters was 
talking to you about.
    First, the Department created a Coordinator for Countering 
Violent Extremism. Then it established an Office of Community 
Partnerships. In the Trump administration, the new Office of 
Terrorism Prevention Partnership (OTPP) was created as a 
replacement for the Community Partnerships Office. These 
offices have all suffered from a lack of funding, lack of 
personnel, and lack of internal support.
    In April, Acting Secretary McAleenan announced the creation 
of a new office, the DHS Office for Targeted Violence and 
Terrorism Prevention (OTVTP), which will be housed in your 
Directorate. The Acting Secretary's comments indicate that this 
new office is a top priority for the Department, which I would 
welcome and strongly support, as we talked about yesterday.
    However, the public information provided by DHS uses the 
same buzz words and descriptors as the office's predecessors, 
and from what I can tell, the office's functions are nearly 
identical to the past versions. Moreover, DHS Assistant 
Secretary Elizabeth Neumann seemingly confirmed this when she 
testified before the House last week that the current office is 
a rebranding of previous versions of the DHS' homegrown 
terrorism prevention efforts.
    I am concerned that the Department spends a lot of time 
rebranding old initiatives instead of working to get better 
results. I fear that this focus on rebranding reflects a 
failure of the Department, a failure to learn critical lessons 
about underfunding and understaffing, that underfunding and 
understaffing undermine our homegrown terrorism prevention 
efforts. So to prove that the Department is serious about this 
effort, it would be helpful to know the following:
    First, how much new funding has the Department given this 
office?
    Mr. Wolf. Senator, the funding level for the Office of 
Targeted Violence and Terrorism Prevention (TVTP) has remained 
pretty much the same, so we have a base funding and then we 
have, as I believe we talked about, a $10 million grant program 
that concludes in July of this year.
    Senator Hassan. But that is still no new funding?
    Mr. Wolf. That is correct. That funding was allocated in 
2016, and then it has been a 2-year cycle, started in 2017, and 
ending in 2019.
    Senator Hassan. And how many new staff have been assigned 
to this office?
    Mr. Wolf. From my recollection--again, as you indicated, 
that office has transferred just recently into the Policy 
Office--there are 12 Federal employees dedicated. I believe we 
have seven to eight of them on board, but there are additional 
billets in that office.
    Senator Hassan. So will that be staff in addition to what--
--
    Mr. Wolf. So that is a slight increase over 2018, but it is 
just a slight increase.
    Senator Hassan. And does this office have a strategic plan?
    Mr. Wolf. We are currently at work on that. As you 
mentioned, it is not only a rebranding. It goes beyond that. 
So, yes, we are taking lessons learned of the previous 
iterations of the office. But as the name indicates, we are 
also widening the aperture. So we are looking at targeted 
violence as well as terrorism prevention. When we talk to our 
State and local partners, they are worried about terrorism, but 
they are also worried about general mass shootings, school 
violence, and the like. We are looking at targeted violence. 
Overall, the prevention framework that we are hard at work on 
will be in our overall counterterrorism strategy, which, as I 
indicated, will be out this fall.
    Senator Hassan. And you will commit to providing a written 
copy of the Office of Targeted Violence Strategic Plan to 
include its staffing model, policy objectives, and the metrics 
by which it will evaluate its effectiveness by the end of--you 
said this fall?
    Mr. Wolf. Yes, ma'am.
    Senator Hassan. OK.
    Mr. Wolf. Yes, Senator.
    Senator Hassan. Thank you.
    One other thing. I am going to move to a quick question 
with Mr. Byard, but I would like to follow up on if the grants 
are expiring this July, what your plans are not only to deal 
with Islamic State in Iraq and Syria (ISIS)-and al-Qaeda-
inspired domestic terrorism, but also white nationalist-
inspired domestic terrorism as well.
    Mr. Wolf. Absolutely.
    Senator Hassan. Thank you.
    Mr. Byard, in New Hampshire, we are seeing the impact of 
extreme weather events firsthand, as I am sure every one of my 
colleagues is in their State. A few years ago, New Hampshire 
experienced devastating flooding as a result of Hurricane 
Irene. In fact, the U.S. Interagency National Climate 
Assessment last year reported that the Northeast is seeing the 
largest uptick in heavy rain events, and our infrastructure is 
taking a toll as these weather events become more intense and 
more frequent. In 2018, a FEMA-sponsored report indicated that 
every dollar spent on Federal mitigation grants saves society 
$6 overall.
    Mr. Byard, what steps will you take to improve hazard 
mitigation efforts? And what resources do you need from 
Congress? And I realize, Mr. Chair, I am over time, so, Mr. 
Byard, I will urge you to be brief, and you can always follow 
up with written answers.
    Mr. Byard. Yes, ma'am. Thank you, Senator. Mitigation is 
the cornerstone for emergency management. The more we spend up 
front, the more we can harden our infrastructure, the better 
that infrastructure will be, and the least reliance there will 
be on FEMA and our response and recovery.
    What I will do, one, is thank this Committee for the 
Disaster Recovery Reform Act (DRRA), which puts more dollars up 
front, a 6-percent set-aside up front that we are currently 
moving through the process to implementation on that. So that 
is going to give us a greater amount of funding before a 
disaster hits.
    I am fully committed, if confirmed, to bettering mitigation 
across the board. One of my goals will be to have the current 
position that I sit in not needed anymore at some point. Now, 
that is a lofty goal, which is response and recovery. But I 
believe the FEMA Administrator in any capacity should be 
looking at that as he or she moves forward. So I am fully 
committed to mitigation.
    Senator Hassan. Alright. Thank you very much.
    Mr. Byard. Yes, ma'am.
    Senator Hassan. Thank you for your indulgence, Mr. Chair.
    Chairman Johnson. Senator Scott.

               OPENING STATEMENT OF SENATOR SCOTT

    Senator Scott. Thank you, Mr. Chairman.
    First of all, I want to thank each of you for your 
willingness to serve, and I want to thank your families for 
being here and watching. You should be very proud of your 
family members for positions you have already gotten into and 
being nominated, and I wish you the best of luck.
    So, FEMA, Mr. Byard. FEMA did a great job in our 
hurricanes. They were an outstanding partner. I could not ask 
them to do more than what they have done. Gracia Szczech in the 
Southeast, she was always there and just did a great job, so I 
want to thank you for that.
    The thing that surprised me, though, about FEMA was this: 
This debris cleanup, how could we get contracts at the State 
level for $7 and $8.50 a cubic yard on average and then the 
Corps of Engineers have a contract, sometimes the exact same 
company, for $72? I have never understood how that could 
happen, and I never understood why there was a different 
reimbursement system based on who is contracted with. So if I 
turn it over to the Corps, there was a higher reimbursement 
level than if I left it to just get reimbursed by FEMA, which 
also did not seem to make much sense to me. And while it worked 
for us really well, because we had a good working relationship 
especially with Gracia, it did not seem like the programs for 
housing were set in stone, and maybe that is good or maybe that 
is bad. I do not know. I just would like to get your thoughts 
on--those things always seemed--did not seem logical to me the 
way government would work.
    Mr. Byard. Thank you, Senator, and I might add, when we 
first met, at the time you were Governor of the State, the 
State also did a great job and really set us up from the way 
the system operates in a way it should, which is supporting 
those State-led efforts and those locally led efforts.
    Senator Lankford--I know you and have had conversations. 
When I met with him individually, he brought up the debris 
issue, and I cannot speak on how the Corps or how they go about 
their contracting. What I do know is the Corps of Engineers is 
a great partner for FEMA. They get the lion's share of our 
mission assignments when we do that.
    So as far as how we can ensure that our local governments 
are doing what we ask them to do, which is pre-event contracts, 
one aspect of that is we need to look at how we assign the 
Corps to do debris. I know FEMA gets pressure from all sides 
when we do an operation. We get it from the oversight, which we 
need it. We get it from the Governors, which we need it. And we 
get it from our citizens, which is most important who we need 
to listen to.
    The pressure sometimes to do a Corps mission assignment for 
debris is requested by a State, and that debris mission, the 
reimbursement does not go through our public assistance 
program. So to a mayor or a county commissioner or to State 
government, they do not have to go through some of the 
complexities of public assistance to get the reimbursement. It 
is all done on the Federal dollar, and then a cost share is 
then set to the State to reconcile the billing.
    Now, the purpose of the Corps' mission assignment, if you 
look at it, it is to do those things that the State and local 
government do not have the capability to do. And a lot of 
times, mission assignments cover a lot of different areas, for 
example, the food, the meal ready to eat (MREs), the water, the 
fuel deliveries, the urban search and rescue (USAR) teams that 
we deploy into our local and State governments, all necessary 
to save lives. They are done, they are managed at the Federal 
level. The logistics is done at the Federal level. Debris is 
part of that.
    There are certain situations where I feel the Corps of 
Engineers or a local or State would not have the capability to 
do debris. An example would be specifically in your State very 
recently, Mexico Beach, very heavily construction debris, not 
the typical wood debris. I look back at even Hurricane Andrew 
down in Homestead, a lot of home debris, technical debris. What 
we are doing in Paradise, California, as we speak, very 
hazardous debris.
    So it takes a specialty. It takes a certain different way 
of doing debris than just--and I say ``just'' lightly, but then 
picking up the vegetative debris and so forth.
    So one area, as I was in a discussion with Senator 
Lankford, was that FEMA needs to maybe say no to the mission 
assignments, because if a State or local has a pre-event 
contract, that should be an indication that they have the 
capability to do the work. But you are exactly right. We met in 
Florida. I know it all too well. You have X dollars, pre-
negotiated, ready to go. Another company that is contracted by 
a Federal entity in the Corps has a considerably higher debris 
rate. It is business. Those companies want to get on the higher 
debris rate, and it caused problems down range. It delayed 
housing. It delayed services that we needed to get to 
Floridians in the time of need.
    I will be happy, if confirmed, to work with anybody on how 
we level that, but, again, I would ask that we look at the 
pressure that will come from a Governor when FEMA says no. It 
can be intense at times, but that would be my role as the 
Administrator to explain you have the capability to do that and 
you have a pre-event contract, let us initiate the contracts 
for speed of delivery.
    Senator Scott. Why is there a different reimbursement rate? 
Not just price but the percentage. Why would there be--because 
my understanding, the pitch to me was, ``Turn it over to the 
Corps because you immediately go to 90 percent just like that, 
and you do not have to worry.'' In Hurricane Irma, the Feds 
deal with 75 percent unless we got to a certain level.
    Mr. Byard. Right.
    Senator Scott. But, immediately, if I turn it over to the 
Corps, I got to 90 percent. Why would we do that? Why would the 
Federal Government do it that way?
    Mr. Byard. So, Senator, when we talk about mission 
assignments as a whole, we do not look at the differences of a 
USAR team versus a debris contract. That is done when the 
President authorized an increase cost share like that, early on 
in a disaster. It is really done to take that burden off a 
State and to take that decisionmaking off a State. So you will 
see language of a 90-percent cost share for direct Federal 
assistance missions, and there, again, that is--I do not want 
to say a ``loophole,'' but that is an area where we need to 
look at, because debris under the Corps falls under direct 
Federal assistance mission. But we do not want a Governor 
worrying about dollars if he or she needs a USAR team or food, 
water, and commodities.
    Now, it equals out in the end, as it has in Florida. They 
are all 90-10 whether you went with the Corps or whether you 
went private contractors over time. But that is an area, as the 
third goal in our strategic plan, that is a complexity that we 
have to address. So, again, I think working not only with the 
Committee, if confirmed, but, sitting down with the National 
Governors Association and saying, ``Hey, how do we get you what 
you need but also understand that we have to be good stewards 
of the taxpayer dollars on other ends?'' And if you have a 
debris contract, we should expect you to enact that debris 
contract before you request the Federal Government come in and 
do that for you.
    Senator Scott. Thank you.
    Mr. Byard. Yes, sir.
    Chairman Johnson. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks again to all of you and to your 
family members who have joined you, in person or by remote 
sources.
    I want to start off, if I could, with a question for Mr. 
Edgar. I used to be State treasurer for Delaware. I was State 
treasurer when we had the worst credit rating. We had the worst 
credit rating my first month as State treasurer. I do not know 
if it was because I was the State treasurer or not, but that is 
the way we started off. And Pete du Pont was our Governor, 
great Governor, and 6 years later we got a AA. About 15 or 16 
years later, we had AAA and still have it. So we are very proud 
of that.
    But one of the things I have done as a Member of this 
Committee is to work with leaders of departments to make sure 
that they are working closely with the Government 
Accountability Office (GAO) in order to, among other things, 
earn clean opinions in terms of the way their finances are 
being run.
    But at DHS, there was a gal who used to be the Deputy 
Secretary under Janet Napolitano, Jane Holl Lute. Jane Holl 
Lute was Deputy Secretary about 10 years ago. She used to go to 
meet with the person who ran GAO every month and say, ``What do 
I have to do to get off''--Gene Dodaro, ``What do I have to do 
to get off your list of problem agencies?'' And finally they 
got a clean audit. We are trying to get the Department of 
Defense (DOD) to get a clean audit, all the different pieces of 
that.
    But now DHS has been issued a clean audit for their 
financials for a number of years, including by independent 
auditors. If confirmed as CFO, how do you plan to maintain a 
clean audit opinion for DHS?
    Mr. Edgar. Thank you, Senator, for the question.
    Senator Carper. You are welcome.
    Mr. Edgar. Although I am not with the Department at this 
point, I did a lot of research and evaluated--it and it seems 
that the Office of the CFO, even though there has not been a 
CFO there, has done a good job of coordinating with GAO and the 
IG and making sure that all of the items that get identified 
and evaluated through the audits are taken care of.
    If you look a little bit deeper, the one area of 
opportunity is in the internal controls. A big issue there with 
the internal controls is the weaknesses potentially in the 
financial reporting. I think that with my background I would be 
able to go through and focus on that. That has been a project 
that has been out there and has been dependent on replacing the 
financial management systems. You see a lot of the audits that 
point to that as being one of the areas of remediation. So, I 
hope to be able to jump in there and help out, if confirmed.
    Senator Carper. There is a fellow who works at the 
Department named Chip Fulghum. I do not know if you know him. 
He now I think serves as the Acting Under Secretary for 
Management, a guy that has been around for a while, very 
knowledgeable. I would urge you to talk to him.
    Mr. Edgar. OK, great. Thank you, Senator.
    Senator Carper. I have a question for Mr. John Barger. How 
are you, sir? A question about health care for postal employees 
and more particularly for their retirees. I think my next to 
the last year I was Governor, I was talking about trying to get 
better credit ratings from the rating agencies, and the year 
that we went to AAA--I think it was 1999. We earned AAA credit 
ratings from all the agencies, major agencies. And they said to 
us, ``We are going to award you AAA credit ratings, but you 
still have liabilities that you have not recognized, and you 
are not beginning to set money aside.'' And we said, ``Well, 
what is that?'' And they said, ``You have a pension fund fully 
funded for your retirees, but you have not set aside any money 
to meet the liability of health care for your present and 
future retirees.'' And we said, ``Well, have other States done 
that?'' ``Well, no.'' ``Have other cities and counties done 
that?'' ``No, not really.'' ``How about big companies?'' ``No. 
But they have the liability.''
    So it is a real liability, and it is a real liability for 
the Postal Service. The Postal Service began in about 2007 to 
set aside money to meet what was about a $100 billion 
liability, and they have set aside, I think, over the years 
maybe $50 billion, about half of that, to meet that liability. 
And given the drop in First-Class Mail, which is how the Postal 
Service makes their money, a terrific drop in First-Class Mail 
because a lot of stuff moved to the Internet, as you know, and 
electronic mail, they have had a hard time meeting what was 
really an accelerated payment plan to meet this health care 
liability for their pensioners.
    In any event, have you ever heard of, are you at all 
familiar with this issue? Is this something you have heard 
anything about?
    Mr. Barger. I have heard about it, Senator, yes.
    Senator Carper. There have been a number of proposals made 
to address, help address the Postal Service's health care. One 
of those is Medicare integration, something that every large 
company of any consequence does, if they offer health care help 
for the pensioners, they integrate it with Medicare so that 
Medicare--their retirees sign up for Medicare Part A, Part B, 
and Part D. And then the company provides some kind of wrap-
around plan. But the Postal Service is not allowed to do that, 
and it is unfair. They actually pay more into Medicare than 
their competitors, which is not a fair thing.
    So I would just ask you to keep an eye on this. If you are 
confirmed, we will want to talk to you some more.
    Mr. Barger. I would be pleased to. These are some of the 
most difficult issues not only for the Postal Service, but we 
grappled with those in California, also. We will definitely be 
looking at that and studying it.
    Senator Carper. Thank you.
    An immigration question for Mr. Wolf. Which of you is a 
former Marine?
    Mr. Wolf. That was Mr. Byard.
    Mr. Byard. Senator, that was me.
    Senator Carper. OK, good. Thank you. Navy salutes Marines. 
Other military?
    Mr. Edgar. Navy.
    Senator Carper. Navy, good. But, Mr. Wolf, when people ask 
me what kind of Democrat I am, I say I am one who believes in 
strong border security. I also believe in the Golden Rule: 
Treat other people the way we want to be treated. I believe in 
Matthew 25, ``When I was a stranger in your land, did you 
welcome me?''
    But migrants now arriving at our Southern Border are some 
of the world's most vulnerable people. The Chairman and I 
talked about this in a forum earlier today. They have in many 
cases undertaken a dangerous journey, as you know, in search 
for a better life here. The last couple of months we have seen 
the numbers just surge. Part of the reason is drought and 
economic conditions, particularly in Guatemala and Honduras. 
Worse, smugglers work overtime to capitalize on their misery. 
There have been incredible, unbelievable bad election 
activities that are going on in Guatemala even today. Some of 
the best, most qualified, honest people are not going to be 
allowed to run for President of that country. They are actually 
kept out of the country. In Honduras, we have seen very 
concerning assertions going around about the President of the 
country and that President's family.
    But to you, the Department of Homeland Security occupies a 
key role in enforcing our immigration laws and sharing 
intelligence with our partners and neighbors in Mexico and 
Central America, interdicting drugs and illicit goods and so 
on. As Chief of Staff, I think you were present at some of DHS' 
darkest moments, including the zero tolerance policy that led 
to family separation last year at our Southern Borders and the 
decision to end Temporary Protected Status for Haiti and El 
Salvador.
    Do you believe that these decisions were constructive to 
reducing irregular migration to the U.S. Southern Border? That 
is my question. Do you believe those decisions were 
constructive to reducing irregular migration to the U.S. 
Southern Border?
    Mr. Wolf. Senator, thank you for the question.
    Senator Carper. Sure.
    Mr. Wolf. To the earlier point, when we talk about both 
push and pull factors, I certainly agree with you regarding 
understanding the environment in Central America, and both 
myself and the Acting Secretary, who just made a recent trip to 
the Northern Triangle, are focused on what are the push factors 
and then what are the pull factors.
    Senator Carper. Right.
    Mr. Wolf. So I think you have to address both. You cannot 
do one and not the other. So we are certainly focused on that. 
There are certain reforms that we are talking to Members of 
this Committee and others here in Congress about: new 
authorities, supplemental dollars to address the crisis, the 
overwhelming crisis on the Southern Border.
    When we talk about both temporary protected status (TPS) 
and zero tolerance, we talk about following the law, looking at 
the law, what the law states, and then enforcing that. So, 
again, as Chief of Staff my job was to make sure that the 
Secretary had all the experts in the room. When we talk about 
TPS, to making sure that she had the current conditions from 
the State Department, but also talked to her experts at USCIS, 
and then, of course, made the decision that she did.
    The same as I mentioned earlier--I am not sure if you were 
here--the same on zero tolerance. As we looked at the Executive 
Order from the President and the AG's determination on the 
policy forward, how do we operationalize that? So making sure 
that our law enforcement officers on the Southern Border could 
do just that.
    Senator Carper. Alright. Thank you.
    Chairman Johnson. Senator Hawley.

              OPENING STATEMENT OF SENATOR HAWLEY

    Senator Hawley. Thank you, Mr. Chairman. And 
congratulations to each of you on your nomination.
    Mr. Byard, let me start with you. I enjoyed our 
conversation, yesterday I guess it was. We talked about the 
fact that my home State is suffering from very significant 
flooding as well as other significant natural disasters--
tornado disasters most recently. But let me just focus on the 
flooding for a moment because 30 communities--actually over 30 
communities in Missouri are currently suffering from 
significant flooding, but without any individual assistance. 
And I am concerned about this, and I am concerned about 
decisions that may have been made at FEMA that are preventing 
that individual assistance from flowing. So let me just get 
some of these facts on the record because I think this is 
important.
    From March 11th to April 16th, communities in my State--in 
the northwest, in particular--were hit with terrible floods. 
Those water levels began to abate on april 17. But then on 
April 29, the waters rose again, and they have stayed high ever 
since. So many families that were forced to evacuate their 
farms, their homes, etc., have never been able to get back in. 
The water never went down sufficiently enough for them to 
actually go back to their homes. And yet FEMA has, at least 
thus far, not been willing to award or recommend any individual 
assistance.
    Now, I do understand that a lot of these homes are 
inaccessible because of the floods, and I understand that FEMA 
is now working with the State's Emergency Management Agency to 
conduct aerial assessments, aerial damage assessments, which we 
talked about, across Missouri. But I just want to be sure that 
no family that needs relief is denied it because of a decision 
that FEMA may have made.
    I am particularly concerned about the fact that FEMA 
appears to be treating, appears to be saying that these 
families are victims of two separate flooding events rather 
than one continuous event and that is why they are perhaps 
ineligible, according to FEMA, for individual assistance.
    So with all of that in mind, as you know, I have joined a 
letter with my colleagues in the Missouri delegation asking the 
Administration to please provide individual assistance to 
families in Andrew, Atchison, Buchanan, Holt, and Platte 
counties. And what I would like to get from you is your 
commitment that, if and when you are confirmed, I will have 
your partnership in working toward a resolution on this 
situation and then trying to get individual assistance flowing 
to the people of Missouri who are struggling in this really 
difficult time.
    Mr. Byard. Senator, you and every Member of this Committee 
and every Governor in our country, if confirmed, will have my 
commitment that FEMA will always do what we can. There are 
certain criteria that are looked at in any storm, and there are 
certain areas where States have good capabilities to provide 
resources where FEMA is not the end answer of that.
    In the case of Missouri, it is very devastating. This is 
historic flooding we are seeing throughout the middle of our 
country, as you well know, and then to get hit very soon after 
that with tornadoes.
    As we discussed yesterday, there are FEMA teams currently 
on the ground. On the original Governor's submission, all the 
damage was not captured, and that is very important. That is a 
very fundamental necessity in emergency management, is to make 
sure that damage is captured. There are homes that are not 
accessible, and that happens in floods. I am not saying that 
that is specific to Missouri. That happens in floods.
    But as you know, we have teams on the ground now. We have 
great communications with the Governor. The Governor has 
appealed that decision, and we look forward to processing that 
in a very expedited manner. But the State wants to make sure 
that they get all the damage captured in this appeal. So, yes, 
you have that commitment.
    Senator Hawley. Great. Thank you for that, and thank you 
for the work you are doing in helping to get those damage 
assessments, and I look forward to working with you to get the 
assistance that the families in my State need and get it 
flowing, so thank you for that.
    Mr. Wolf, let me turn to you. A number of my colleagues 
have mentioned today children and the border. I am glad they 
did. I want to ask you about the plight of children on the 
border. Are you familiar with the existence of child smuggling 
rings on the Southern Border?
    Mr. Wolf. I am.
    Senator Hawley. Tell us about what these rings are doing 
and how they are using children in order to pad the profits of 
the cartels and of human smugglers using children as human 
shields. Can you tell us what that is about?
    Mr. Wolf. So we see that in two different ways. Again, both 
from the experience of CBP as well our ICE Homeland Security 
Investigations (HSI). It would be children being smuggled up, 
so being paired with an adult of some kind who is not their 
family member, is not a legal guardian to be their family 
member, as a way to get into the country as they cross the 
Southwest Border. We also talk about child recycling rings, 
and, this is extremely disturbing, as we have seen case after 
case of children, the same child coming across the Southwest 
Border again with an adult who is not their family member being 
recycled. They get passed off, and they get sent back to 
different parts of Central America, and we see the same child 
recycled time and time again. So we see it in a couple of 
different ways, the latter being probably the most disturbing.
    Senator Hawley. The Acting Secretary testified yesterday 
about children being rented, actually rented. I think it was 
$89 to rent a child and to take this child across the very 
dangerous border crossing in order to try and claim asylum or 
otherwise get into the country. Are you familiar with that as 
well?
    Mr. Wolf. I am familiar with that as well.
    Senator Hawley. Is it safe to say that we have a serious 
humanitarian crisis on our Southern Border, a humanitarian 
crisis that is putting the lives and safety of children at very 
extreme risk? Is that fair to say?
    Mr. Wolf. I would even go a step further, Senator. It is an 
unprecedented crisis, and it is straining the resources of the 
Department in the very worst way.
    Senator Hawley. Is it fair to say that every day that this 
Congress refuses to act, the lives of children are further 
endangered and the crisis grows worse? Is that fair to say?
    Mr. Wolf. I would agree with that. We have engaged Congress 
both from a funding standpoint in a supplemental request that 
would look at transportation needs on the Southwest Border, 
humanitarian needs as well as engaged Congress on different 
authorities needed to address the crisis on the border.
    Senator Hawley. It just seems to me that everybody should 
be concerned about the plight of children on the Southern 
Border. Everybody should be concerned about the exploitation of 
children by drug cartels, by human smuggling rings, in order to 
pad the profits of criminal enterprises. And everybody who 
cares about children should have a real sense of urgency in 
doing something, fixing this problem at the Southern Border. 
That means this Congress needs to act.
    Mr. Wolf. I would agree, Senator, and what we are concerned 
with at the Department are a lot of things, but we have over 
10,000 unaccompanied alien children (UAC) every day that arrive 
at the border, and caring for them is becoming a huge challenge 
for CBP officers. We continue to do that because that is our 
mission, but we do need help from the Congress.
    Senator Hawley. Thank you.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Hawley. By the way, I 
appreciate your raising that point. When I was down on the 
border a couple weeks ago with Senator Hassan and Senator 
Peters, one of the stories we heard was about a 3-year-old 
little boy abandoned in a hot field in Texas. The phony parent 
just abandoned the child. I guess they had the integrity to jot 
a phone number on his sandal.
    I think initial indications, too, from some initial studies 
are that about 25 percent to a third of the families are 
potentially fraudulent. So this is a huge problem, and I 
appreciate your raising that issue.
    Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. It has been a long hearing, I know, Mr. 
Chairman.
    First, thanks to each of you for your willingness to step 
up and to serve, and some of you are stepping into some really 
tough jobs. I know, Mr. Wolf, you have already been there, but 
it is getting tougher. And you say unprecedented in terms of 
the crisis. Just to put a finer point on it, we have had huge 
numbers of people come over the border before. They tended to 
be single men. They tended to be from Mexico. But we have never 
had a situation where we have had so many children and families 
coming over the border, and we have never had the asylum 
process be misused in this way.
    So we have in Ohio a strong interest in this, as all 
Americans do, because of the children and the human 
trafficking, but also because of the drugs that are coming 
over. And, specifically, crystal meth is our new concern in 
Ohio. We are finally getting the opioid crisis somewhat under 
control, although we have a long way to go, but at least we 
have seen some progress for the first time in 8 years. Now 
directly from Mexico, pure crystal meth is coming in and, in 
essence, creating an even more difficult problem for some of 
our law enforcement, and that is a psychostimulant as opposed 
to opioids, which is causing great harm.
    So part of the challenge we have is: How do you get people 
back on the border protecting our border from the drugs coming 
across? And the funding we have provided has been helpful, but 
not if the personnel are dealing with the humanitarian crisis. 
I hope we can pass the supplemental to provide some help on the 
humanitarian side quickly.
    Mr. Byard, you are being nominated for another really 
important job, FEMA. It seems like they never end. There is a 
disaster every couple of weeks, it seems like, and my home 
State of Ohio got hit hard recently. As you know, we had 
flooding in Southern Ohio a couple of months ago. Now we have 
had these hurricanes that touched down. We had 21 recorded 
tornadoes touched down throughout the State. Twenty-one 
tornadoes, all in the space of one night, one evening from 
about 10 p.m. until about 1 a.m. I was there in the vicinity, 
about 20 miles away from where some of them touched down, so I 
was right there the next morning, and I saw the damage 
firsthand and met with the first responders and thanked them, 
met with the residents, went to a shelter, took food and water. 
The damage is unbelievable. You look at the numbers, and you 
will not see the deaths that you would expect from such a 
disaster. It is a miracle. And thank God it happened at night 
when people were not at the shopping malls because there were 
shopping malls that were totally destroyed. People would have 
been killed by the dozens.
    But we do have incredible damage, and as you know, perhaps, 
Governor DeWine has recently made a request for a national 
disaster. I am strongly supporting that. I have sent a letter 
in support of it.
    My question to you today is: Do you commit, should you be 
confirmed, to responding quickly to these kinds of requests so 
people can begin to rebuild their lives?
    Mr. Byard. Senator, I do. Thank you for the question. Thank 
you for the comment. 21 tornadoes in one night, that is 
devastating destruction, no matter what State it is. The way I 
approach that is I am asked a lot, ``what is the worst disaster 
you have seen?'' And I have seen, unfortunately, or 
fortunately, as an emergency manager, I have seen a lot of 
disasters. It is the one that I am sitting in the living room 
and everything the family owns is destroyed. It is their worst 
disaster.
    So we get caught up in numbers a lot. We get caught up in 
unprecedented and then it is there. But what Ohio saw, and the 
citizens of Ohio, is devastating to them.
    There is nothing that we look at, there is nothing from a 
FEMA standpoint that we do not actually have--we have units set 
up to address when a declaration comes in. We have teams on the 
ground, as you know, with Ohio now. But, we do--and, yes, I 
will commit to very expeditiously processing disaster 
declarations from Governors.
    Senator Portman. Thank you. We need to help quickly. The 
small businesses and individuals that are impacted are hurting, 
and communities respond. It has been incredible. But we have to 
have some help, and we need it now.
    Mr. Byard. Yes, sir.
    Senator Portman. Another program that you would have 
responsibility for, should you be confirmed, will be the 
Nonprofit Security Grant Program. This is really important. Mr. 
Wolf was talking earlier about the increase in the domestic 
threat, and, in particular, there is a domestic threat on a 
number of our nonprofits and faith-based organizations. This is 
a grant program that is meant to help them, provide them with 
some of the best practices and advice and counsel, but also 
provide them with some hardening for their facilities.
    I have heard a lot from the Jewish community in Ohio and 
been to some of the synagogues and community centers and 
schools that have been affected with graffiti and a lot of 
death threats, bombing threats. They depend on this grant 
program to be able to secure those facilities and to train the 
employees. I am very pleased to see that security personnel can 
now be used with Federal grant money to contract with security 
personnel.
    It is a carveout in our annual appropriations bill. It is 
not established as a separate program. It is not authorized. So 
I have introduced legislation, along with Gary Peters--the real 
Gary Peters who just arrived--of this Committee--I will tell 
you about that later--to try to be sure that we can actually 
authorize this program and have some certainty about it.
    So we would appreciate your support on that. We have 
authorized it at 75 million bucks a year. That is 15 million 
bucks more than is now being appropriated. The reason is it is 
not going to our smaller communities, many of whom need it 
badly.
    So my question for you today and for Mr. Wolf as well: Will 
you support this vitally important program and commit to help 
us to get it actually into law, into statute?
    Mr. Byard. Senator, again, a good question. Currently the 
grants within FEMA reside in the Resilience Directorate, which 
is not currently under my portfolio, if you will, but I do 
believe it has been a recipient of Federal preparedness grants 
of various nature. I do believe in the importance of them, and 
I would be happy to work with you, if confirmed, to better that 
program.
    Senator Portman. Mr. Wolf.
    Mr. Wolf. From a policy perspective, Senator, there is 
great benefit both in the Nonprofit Security Grant Program as 
well as the grant program that is run out of the Policy Office 
when we talk about terrorism prevention. So from a policy 
perspective, there are many benefits to supporting that in the 
long term.
    Senator Portman. Thank you. This is the Nonprofit Security 
Grant Program, and, again, it is one that is working, and we 
want to get it into statute to make sure that there is some 
certainty for it.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Portman.
    Now we will turn it over to the real Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    Mr. Wolf, as you know, Michigan is home to a number of very 
diverse communities, and, unfortunately, some members of these 
communities, when they travel, they are frequently subjected to 
secondary screenings on a regular basis, which can be lengthy 
and intrusive. So my question to you is: What would you say to 
a Michigander who travels frequently for business or just to 
see family and who already has a redress number, but they are 
still regularly subjected to secondary screenings without 
explanation or any path toward resolution?
    Mr. Wolf. So they have certainly taken the right first 
step, which is to go through the DHS redress process.
    Senator Peters. And they have that.
    Mr. Wolf. As long as they provide that number each and 
every time when they fly, they increase their chances of not 
being screened, secondary screened.
    Now, getting screened, in that secondary process, there are 
many different factors that lead to that--travel patterns, the 
way you buy your ticket, any number of reasons. However, if 
they have a redress number and use it when they fly, should 
take care of 95 or 96 percent of their issue. So if they 
continue to have the redress number, use it when they fly, and 
are still getting secondary screened time and time again that 
is concerning to me. That should not be occurring. So if 
confirmed, I am happy to take a look at that and understand if 
there is a large systemic problem in the system.
    Senator Peters. Well, I appreciate that because I am 
hearing this constantly from folks that are having that issue, 
and we have to--obviously, safety and security of the country, 
all that is important, but the way this is being implemented is 
raising lots of concerns for good, law-abiding Americans, and 
we want to make sure we are doing this correctly. So I 
appreciate your willingness to work with that.
    TSA and CBP have told me that they do not keep any data on 
wait times for passengers pulled aside for secondary screenings 
and inspections. They also do not keep data on how long these 
secondary screenings take or the number of secondary screenings 
that a specific individual has to undergo. I will acknowledge 
that there are operational reasons. Data collection can be 
difficult, without question. But this seems to present some 
serious challenges to developing and implementing some 
departmentwide policies that you will be involved that affect 
travelers.
    So my question is: Do you think that it is important for 
the DHS to build a more robust data environment around these 
issues to improve oversight and accountability? And a follow up 
question to that: With your background at TSA, how would you 
recommend us doing that?
    Mr. Wolf. So I would say yes to the first question. Across 
the Department, we need better data systems. We need components 
talking to one another so that they provide information to 
policymakers like myself that present options to senior 
leadership.
    From a TSA perspective, of course, they produce wait times 
on the normal checkpoint process. I am unaware that they 
produce wait times on secondary screening. I am happy, if 
confirmed, to look into and talk with TSA officials to 
understand what would be the issues of collecting that 
information. If it is a resource issue, or manpower issue or if 
it is more of a security concern that they have I have not had 
those discussions with them to date, but am happy to follow up 
on that.
    Senator Peters. I appreciate that. Thank you.
    Mr. Edgar, in your response to prehearing questions, you 
said that Global Conductor Inc. (GCI), that you ``always ensure 
that any whistleblower does not face retaliation in accordance 
with all applicable laws.'' Do you stand by that?
    Mr. Edgar. I do. Thank you, sir.
    Senator Peters. Do you value the role that whistleblowers 
play in the public as well as in the private sector?
    Mr. Edgar. Yes, I do.
    Senator Peters. If employees and contractors of your 
companies have information that bears on your qualification for 
office, do you think they should share that information with 
this Committee?
    Mr. Edgar. Yes.
    Senator Peters. I assume, then, that you would agree that 
any nondisclosure agreements that are signed by employees or 
contractors with your companies do not prohibit them from 
sharing relevant information with this Committee?
    Mr. Edgar. Senator, I just would like to get a little bit 
of a better idea of the kind of the direction of this. I think 
the short answer is that you guys should have all the 
information you need to make a good decision on me, so I am 
open to that. I would also say that, if this is information not 
provided through this process, it would be fair to me to be 
able to have a better understanding of what it might be.
    Senator Peters. Well, if there are employees that have 
information that we want to get from them but they feel that 
they have a nondisclosure agreement that prevents them, would 
you be willing to still allow them to communicate with us?
    Mr. Edgar. I would be open to that. I would have to see 
what the issues are. The specifics are that we have a lot of 
agreements with clients, Fortune 500 clients, where we are not 
allowed to disclose information about them. So it is a 
situation that could put the corporation that I own into a 
situation. So I think that is one of the reasons why we have 
that.
    Senator Peters. You have also disclosed, as you were 
obliged, that GCI was sued civilly in an employment matter and 
that arbitration is ongoing. Would you commit to working with 
the Committee in advance of any vote on your nomination to 
provide relevant information related to this or any other 
allegations and address any concerns that come up as a result 
of that?
    Mr. Edgar. Yes, sir.
    Senator Peters. Great. Thank you so much.
    Mr. Edgar. Thank you.
    Chairman Johnson. As usual, my colleagues have asked a good 
set of questions here, so let me just close this out. I will go 
down, starting with you, Mr. Bungard. I know in testimony you 
have provided some of this information, but just for clarity 
and to have it on the record, if confirmed for your position, 
what would be your top priority?
    Mr. Bungard. Thank you for the question, Chairman. I think 
the biggest challenge facing MSPB currently is the backlog. So 
without having a quorum for a very long time, if confirmed, I 
would work with the Chairman and the other Board member to 
reduce that backlog as quickly as possible while ensuring 
quality of the decisions.
    Chairman Johnson. Thank you, Mr. Bungard. Mr. Barger.
    Mr. Barger. Thank you, Senator. The Postal Service has a 
universal service obligation, which is historical and still 
very, very relevant and important to our country. Trying to 
figure out how best to meet that obligation and also balance 
that against the costs and the revenue of the system and try to 
determine the best, most viable economic model for the Postal 
Service so that, again, we preserve the universal service 
obligation but at the same time we have something that is 
economically viable and does not overburden the taxpayers.
    Chairman Johnson. Thank you, Mr. Barger. Mr. Edgar.
    Mr. Edgar. I think the biggest challenge right now is if 
you look at the DHS budget of over $90 billion, there is a 
tremendous amount of money. You heard today a lot of the 
operational issues on the ground are changing in real time. 
Budgets are made 2 to 3 years ago, and then we come across 
these issues, and we have to kind of take a look at the 
reprogramming.
    I think at this time in history it would be really 
important to have a Chief Financial Officer that would help 
with the Office of the CFO to do the coordination both with the 
operators and with the White House and senior staff within DHS.
    I would also say that, again, as I shared with Senator 
Carper, as an outsider looking in at DHS, they must focus on 
controls. The clean audit that this organization has 
accomplished has been really good to be able to have completed. 
What is left of the financial controls and the weaknesses in 
the controls that potentially affect the financial reporting of 
a $90 billion agency would seem to be a big priority. Given my 
background in financial management system implementations for 
some of the largest Fortune 500 companies, I think I could 
really jump in and help and try to get those back on track. 
Thank you.
    Chairman Johnson. Thank you. Mr. Byard.
    Mr. Byard. Thank you, Mr. Chairman. A top priority would be 
to address the needs of our disaster workforce. We have to 
continue to build our workforce, predominantly on the recovery 
end of that, to just sustain the historic past two seasons and 
the recovery we had. We have 61,000 project work sheets in the 
works now, individual project work sheets. That is a tremendous 
workload. If confirmed, I would like to see the Agency ensure 
that we do more to recruit, retain, and promote those areas of 
underrepresented populations within emergency management. I 
think that you have to have a diverse workforce. The Agency has 
to be representative of the community in which we serve, and 
that would be my priority for the workforce.
    Chairman Johnson. I appreciate your pointing out the 
workforce. I think many Members of the Committee have seen 
firsthand, during these disasters, just the 24 hours, 7 days a 
week type of nature of this, the volunteers coming from around 
the Federal Government, quite honestly, to kind of help man the 
stations. Again, we truly appreciate the work the men and women 
of FEMA do, but also, quite honestly, the Department of 
Homeland Security on the border. We were just down there. The 
growing crisis is overwhelming the system, but we do see the 
compassion and care that the men and women of the Border Patrol 
and ICE are demonstrating as they try and grapple with that.
    Mr. Wolf, what would be your top priority?
    Mr. Wolf. Well, thank you for those comments about the men 
and women of DHS. My top priorities are to continue to respond 
to the crisis on the Southwest Border. It is ``all hands on 
deck,'' as the Acting Secretary has said. Updating and 
rationalizing our immigration system I think is badly needed. 
To address the growing threat of domestic terrorism is a high 
priority that I also have, as well as to institutionalize some 
of the cyber efforts across the Department. We have CISA, but 
we have other equities in the Department that also have cyber 
issues, from U.S. Coast Guard (USCG) to TSA and others, so 
making sure that we institutionalize and look at that threat 
and vulnerability across the Department is also high on my 
list.
    Chairman Johnson. You just listed the top priorities of 
this Committee, oddly enough.
    Well, again, I really want to thank all the nominees for 
your past service and for your willingness to serve in the 
future. Again, thank your families. These are important 
responsibilities that take a lot of time. They will take a lot 
of time from the families. We really are aware of the fact that 
this is a family act of service and sacrifice. So thank you 
very much.
    The nominees have made financial disclosures and provided 
responses to biographical and pre-hearing questions\1\ 
submitted by the Committee.\2\ Without objection, this 
information will be made a part of the hearing record\1\ with 
the exception of financial data,\2\ which is on file and 
available for public inspection in the Committee offices.\3\
---------------------------------------------------------------------------
    \1\ The information for Mr. Wolf appears in the Appendix on page 
45.
    \2\ The information for Mr. Byard appears in the Appendix on page 
119.
    \1\ The information for Mr. Edgar appears in the Appendix on page 
196.
    \2\ The information for Mr. Barger appears in the Appendix on page 
250.
    \3\ The information for Mr. Bungard appears in the Appendix on page 
311.
---------------------------------------------------------------------------
    The hearing record will remain open until 5 p.m. tomorrow, 
June 13, for submission of statements and questions for the 
record.
    This hearing is adjourned.
    [Whereupon, at 5:06 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
